     T         estimony

                       STATEMENT OF
                    ROBERT J. LIEBERMAN
        ASSISTANT INSPECTOR GENERAL FOR AUDITING,
                 DEPARTMENT OF DEFENSE
                        BEFORE THE
           SUBCOMMITTEE ON NATIONAL SECURITY
     VETERANS AFFAIRS, AND INTERNATIONAL RELATIONS
            COMMITTEE ON GOVERNMENT REFORM
         UNITED STATES HOUSE OF REPRESENTATIVES
                             ON
                 FINANCIAL MANAGEMENT:
   THE PROMPT PAYMENT ACT AND DOD PAYMENT PROCESSES




Report Number 99-188        DELIVERED: June 16, 1999



                Office of the Inspector General
                    Department of Defense
Mr. Chairman and Members of the Subcommittee:



I appreciate the opportunity to be here today to discuss

the Prompt Payment Act and the Department of Defense (DoD)

payment processes.   As you know from the Inspector

General’s testimony to this Subcommittee last February 25

and from the Inspector General’s semiannual reports to the

Congress, we fully agree with the General Accounting

Office’s assessment of DoD financial management as a high

risk area.   It should be noted that the Department itself

has candidly acknowledged numerous material financial

management control weaknesses in its annual Federal

Managers Financial Integrity Act assessments to the

President and the Congress over the past several years.

Although most Congressional interest and media attention

have been directed toward the Department’s financial

reporting problems—-specifically, the continued inability

to produce auditable financial statements-—problems

affecting the efficiency with which the Department makes an

average of $22 billion in payments each month also merit

close oversight.




                            1
Background



The Defense Finance and Accounting Service (DFAS) is

responsible for making most DoD disbursements.    DFAS was

activated on January 15, 1991 with the mission of reducing

the cost and improving the overall quality of Department of

Defense financial management through consolidation of 332

finance and accounting offices, as well as standardization

and integration of previously decentralized and diverse

finance and accounting operations, procedures and systems.

DFAS has a key role in the Department’s processes for

purchasing an enormous range of goods and services.    Its

disbursing operations cover civilian and military pay,

retiree and annuitant pay, progress payments to

contractors, other contract payments for goods and

services, travel reimbursements and transportation fees.



Typically, DFAS processes a monthly average of 9.8 million

payments to DoD personnel; 1.2 million commercial invoices;

450,000 travel vouchers/settlements; 500,000 savings bonds;

and 120,000 transportation bills of lading.   Because of the

volume of transactions, the disbursement processes depend

heavily on computer systems.




                           2
The 1990’s have been a decade of enormous ch`ange in the

DoD financial management community.    Besides the physical

consolidation of finance and accounting operations into

5 centers and just 18 operating locations, several thousand

personnel positions were eliminated.    DFAS has drastically

reduced the number of separate automated systems, with the

intention of moving from 69 to 9 finance systems between

FY 1996 and FY 2002 and from 150 to 23 accounting systems

over the same period.    The extensive DFAS systems

development program is intended to field modern, fully

integrated systems that will considerably improve

operational efficiencies in both accounting and finance.

Meanwhile, two successive administrations and Congress have

instituted major acquisition, logistics and other process

changes that profoundly impact the financial community.    In

addition, DoD financial managers are operating in public

and private sector environments where previously radical

innovations like electronic funds transfer and electronic

commerce are now considered routine.



The Prompt Payment Act



Among various statutes and regulations governing DoD

disbursing operations, the Prompt Payment Act, Chapter 39


                             3
of Title 31, United States Code, is probably the best

known.



The Act requires Federal agencies to pay interest penalties

on late payments and, at the same time, adhere to sound

cash management principles by not paying bills prematurely.

Bills are to be paid within 30 days after an invoice date,

but not more than 7 days prior to the due date.   The Act

also specifies that, if the Government and contractors

agree to payment terms differing from the Act, the contract

terms take precedence. Implementation of the Act was

expected to result in timely payments, better business

relationships with suppliers, improved competition for

Government business, and reduced costs through better cash

management.



The last audit that we conducted on DoD compliance with the

Prompt Pay Act was in 1993; resource constraints and heavy

workload associated mostly with the Chief Financial

Officers Act have caused us to defer further coverage

recently.



The 1993 audit, which was a joint effort by my office and

the Army, Navy and Air Force audit services, indicated that


                           4
both the timelines of payments and internal controls in the

vendor payment process needed improvement.       The interest

penalties on late payments, forfeited discounts, and

interest paid by the DoD on funds borrowed to make

inappropriately early payments totaled an estimated

$36 million for the 6-month period covered by the audit.



In response to the audit findings, the Department took

various corrective actions.       We understand that there was

temporary improvement, but recently interest penalty

payments climbed as follows:



               FY 1995             $25 million

               FY 1996             $28 million

               FY 1997             $27 million

               FY 1998             $37 million



With the continuous introduction of new technologies,

processes and systems over the next several years, DoD

should find compliance with the Prompt Payment Act

increasingly less difficult.      Therefore it is reasonable to

anticipate the number of untimely payments and related

interest penalties dropping in the future.




                              5
We consider it important for the Government to be a

reliable business partner when dealing with the private

sector.   This is especially true in light of the current

DoD emphasis on changing or avoiding practices that may

inhibit some firms with high technology commercial products

from doing business with the Government.   Unreliable bill

paying processes could be such an inhibitor, especially for

small businesses.   We consider the Prompt Payment Act

timeframes for determining late payments to be both

reasonable and generally achievable.   We also agree with

GAO that there is no clear linkage between Prompt Payment

Act requirements and DFAS disbursing problems.    Even if it

were demonstrated that hasty decision making is necessary

to pay invoices within 30 days, the lesson to be drawn is

that the disbursement processing procedures are cumbersome

and need reengineering, not that the standard is too tough.



Likewise, we counsel caution in considering changes to the

law or related policies with the intention of mandating

earlier payments and imposing very broad use of

anticipatory discounts.   Considerably complicating the

disbursement process by mandating earlier payments in a

process that already is troubled by inaccurate payments and

accounting errors could retard expected DFAS performance


                            6
improvements.     Also, we have not seen indications that

firms from across the full spectrum of DoD suppliers, from

major contractors to small businesses, would support a

mandated shift toward anticipatory discount pricing.     The

Prompt Payment Act already authorizes payments on

negotiated schedules and related discounts.     We have not

seen any data on the extent to which contracts with such

provisions are already in use or to what types of

commodities they apply.



In summary, with regard to the Prompt Payment Act, our work

has not resulted in any indication that the law is not

working reasonably well.     This is not to say that some fine

tuning, such as revisiting the requirements to pay interest

penalties as little as $1, would not be useful.     Again, I

must caveat these opinions by noting that there has not

been recent DoD audit coverage of Prompt Payment Act

issues.



Recovery Audits



Although wider application of post-payment “recovery

auditing” could enhance the controls for some DoD

disbursement processes, we think such a tool should be


                              7
applied selectively.    Primary emphasis should be placed on

making the payments correctly in the first place.    Problems

such as overpayments take money out of the DoD acquisition,

logistics, and operational programs during the actual

execution of contracts and projects.   It does those

programs little good to have funds returned to the

Department years after they were needed and almost

certainly not to the same specific programs.   The DoD needs

to accelerate implementation of the expanded recovery audit

demonstration program mandated last year by the Congress.

Until the results of those pilot efforts are known, we

believe it would be premature to legislate further

expansion of recovery audit requirements.



Other DFAS Pay Issues



Over the last five years, we have reported on a variety of

DFAS pay issues including inadequate computer security,

lack of verification of transportation bills and inaccurate

disbursement accounting.    The Defense Criminal

Investigative Service (DCIS), the investigative arm of the

Inspector General, DoD, has also been active in a number of

initiatives to deter, detect and bring to justice any

perpetrators of fraud against DFAS operations.


                             8
Problem Disbursements



To maintain proper fiscal control and have reliable

information on amounts available for obligation and

expenditure, DoD needs to be able to match disbursements

reported to the U.S. Treasury with obligations shown in DoD

accounting records.     Unfortunately, the disbursing and

accounting functions are performed by separate activities,

which are not yet linked in fully integrated systems and

often are not collocated.     Disbursement data therefore must

“transit” to the accounting stations.     Excessive delays and

errors can occur in recording the disbursements in the

accounting systems.     DFAS uses the term “aged intransit

disbursements” to denote excessive delays.     If attempts to

match disbursement and obligation data fail, the term

“problem disbursements” is used.     This overall problem is

often compared to inability to balance a checkbook, but on

a massive scale.



The DoD has been working to reduce aged intransit and

problem disbursements for several years.     DFAS reported a

decrease in aged intransit disbursements from $22.9 billion

in June 1997 to $9.6 billion in June 1998.     DoD also has


                              9
indicated a reduction in problem disbursements from

$34.3 billion in June 1996 to $10.9 billion in February

1999.   Despite those significant decreases, unmatched

disbursements will remain a major DoD financial management

problem until fully integrated systems are fielded and the

backlog of unmatched disbursements is eventually

eliminated.   Until then, the Department must make the best

of a bad situation and try to minimize its exposure to

Antideficiency Act violations and undetected improper

payments.



Last year, we conducted an audit of the reporting for aged

intransit disbursements and problem disbursements.    The

audit indicated that, while there continued to be overall

progress, some DoD components were actually losing ground

and the unmatched disbursements in their accounts were

increasing.



To help avoid problem disbursements, Congress has directed

the DoD to phase in efforts to match pending disbursements

to corresponding obligations before making payments.     This

is referred to as “prevalidating disbursements.”   Thus far,

full implementation has been hampered because significant

payment delays were encountered when trying to prevalidate


                           10
all disbursements over $2,500 at DFAS Columbus Center.    The

DoD is committed to implement prevalidation fully by July

2000, which could possibly cause a temporary spike in late

payments and interest penalties.   Eventually, however, we

are confident that better systems will virtually eliminate

problem disbursements, making prevalidation less necessary

or at least easier.



Transportation Pay



In an ongoing audit, we have identified over $1.7 million

in overpayments to carriers/freight forwarders on a limited

sample of DoD Government Bills of Lading (GBLs) for air

freight shipments and $12.4 million on motor freight

shipments during FY 1997.   Management controls and

processes for the preparation, submission, acceptance,

approval, and distribution of tenders; carrier selection;

verification of delivery of freight; payment of GBLs; and

monitoring of carrier performance were inadequate.

Additionally, transportation management functions and

responsibilities are fragmented among DoD components that

have different transportation priorities.   The risk of

fraud in this area is high and neither the DoD pre-payment

screening nor GSA post-payment auditing is an effective


                            11
control.   Implementation of the new Power Track freight

payment system under DoD’s Management Reform Memorandum

No. 15 will improve the payment process and controls.

However, we are concerned that the remaining weaknesses

will continue to allow substantial overpayments.    We will

issue a report to the Department on this matter later this

year.



Our DCIS and Audit offices are taking proactive efforts

focusing on fraud affecting transportation pay.    For

example, a DCIS project at DFAS Center Indianapolis,

Indiana targets transportation carriers who have received

duplicate payments.   The DCIS reviews found 1,083 duplicate

payments for personal property shipments totaling

approximately $1.5 million and 590 duplicate payments for

other freight shipments totaling $160,055.   The recoveries

to date exceed $1.4 million.



Other Contractor Pay Issues



During the past year, the Department has stepped up efforts

to: ensure appropriation integrity when making progress

payments to contractors; encourage managers not to add to

the accounting burden by creating unnecessary extra


                           12
accounts; and introduce extensive use of credit cards for

purchasing goods and services.       We have not yet had an

opportunity to provide an independent evaluation of these

initiatives, although it is clear that the Department has

made only limited progress.       For example, there continues

to be a lack of sound procedures for controlling credit

card use.   We continue to support all three concepts,

however, and hope to provide at least some audit coverage

later in FY 1999 or 2000.



Systems Security



Turning to other challenges confronting the DoD financial

community, I would like to emphasize concern about

information assurance.   As numerous recent hacker and virus

incidents demonstrated, any automated system may be

attacked or misused.   Motives can include vandalism,

sabotage, thrill seeking, propaganda, pranks, invasion of

privacy and fraud.   DoD financial systems that process tens

of millions of disbursements worth over $250 billion

annually are clearly at risk from individuals with any of

those motives.   For the computer criminal who intends to

hack into systems controlling money, the DoD disbursement

systems are prime targets.


                             13
We have been working closely with the Defense Information

Systems Agency and the DFAS over the past several years to

address this problem.    Fortunately, one byproduct of DoD

efforts to reduce the number of separate financial

management systems will be somewhat reduced exposure from a

security standpoint.    To minimize risk, however, it is

imperative that security awareness be stressed, adequate

training be provided, periodic security audits be performed

for every system and processing center, and prudent

measures be taken to detect, react to and learn from

unauthorized intrusions.



We have issued 20 audit reports during the 1990’s on

security matters related to DFAS systems and about 185 of

our 220 recommendations have been implemented.    Most of the

recommendations were made just recently and action on many

of them is still ongoing.    As demonstrated by those

numbers, the Department has been quite responsive to audit

advice.   Currently there is a huge backlog of general and

application control reviews and other computer security

audits and the risks related to limited security oversight

for DoD systems, including finance systems, are worrisome.




                            14
We hope to be able to apply more resources to this area in

the future.



A positive move along those lines is that the Defense

Criminal Investigative Service recently established an

Information Infrastructure Team.   This new unit works in

partnership with other law enforcement organizations and

DISA to react immediately to system penetration incidents.

Additionally, we have a special agent assigned full time to

the FBI National Infrastructure Protection Center.



Vulnerability to Fraud



Numerous factors have contributed to the vulnerability to

fraud of DoD finance operations.   Those factors have

included a weak internal control environment, staff

turbulence and lack of sufficient fraud awareness training

for finance personnel.   Congressional hearings in September

1998 before the Senate Committee on the Judiciary

graphically identified control weaknesses and the damage

done by a few unscrupulous individuals who exploited those

weaknesses.




                           15
The DCIS has primary investigative jurisdiction concerning

allegations of fraud that directly impact the DFAS,

including fraudulent conduct by contractors and government

employees.    The Military Criminal Investigative

Organizations have primary investigative jurisdiction

concerning allegations of fraud pertaining to DFAS services

provided at individual military installations, as well as

pay, allowance and travel fraud committed by a civilian

employee or Service member of a Military Department.    DCIS

currently has 84 open investigations involving DFAS, 25 of

which are theft or embezzlement cases.    DCIS efforts over

the past 5 years have resulted in 73 convictions and

recovery of $4.9 million from cases related to DFAS

operations.



At the February 25 hearing, the Inspector General described

the rather notorious case of Staff Sergeant Robert H.

Miller to this Subcommittee.     Miller and an accomplice were

convicted of stealing nearly a million dollars in

Government checks.   Miller was stationed at a DFAS

disbursing office.



An example of a more recently closed case and conviction

was that of Cabel Calloway, who defrauded DoD of about


                            16
$78,000.   This individual’s three companies obtained

approximately 200 contracts between 1991 and 1997 to

provide goods from manufacturers directly to military bases

and various other DoD facilities.     Calloway was paid for

numerous items which he never provided.     He concealed his

scheme and was able to obtain additional DoD contracts by

using multiple company names and fictitious employee names.

Calloway was sentenced to 4 months home detention, 5 months

probation and restitution of the $78,000.     The DoD debarred

his companies.   Although the amounts involved in individual

fraud cases like this are seldom huge, we are concerned

that weak controls leave the Department vulnerable to

numerous abuses of this type, which cumulatively could

amount to very significant losses.



Since 1994, IG, DoD, auditors and investigators have

supported Operation Mongoose, a Deputy Secretary of Defense

initiative involving the use of computer matching

techniques to detect fraud.     Problems with data base

accuracy have been an inhibiting factor; however, the

project has been a useful laboratory for determining the

viability of various matches as internal controls and fraud

detection tools.




                           17
More recently, DCIS has conducted over 70 fraud awareness

briefings for DFAS personnel, reaching an audience of about

6,600 employees and participated in a DFAS stand down day

for such training last year.    We are working with DFAS on

new training initiatives specifically addressing

vulnerability in the vendor pay area and on improving fraud

referral procedures.



Summary



The DoD faces continued challenges in providing proper

stewardship of the resources provided to the Department by

the taxpayers for national defense.    Improving controls in

the fund disbursement process is a vital aspect of that

stewardship.   The DoD needs to be able to control payments

to prevent errors and fraud; however, at the same time it

must be a reliable business partner and comply with the

reasonable requirements of the Prompt Payment Act.    We

believe that advanced technology and application of sound

management principles, including a good internal control

plan and effective oversight, can enable the Department to

meet these goals.




                           18
